CERTIFICATE OF SERVICE
NO. 19-802
David Ehrman
Petitioner(s)
v.
Cox Communications, Inc. et al.
Respondent(s)
__________
STATE OF MASSACHUSETTS )
COUNTY OF NORFOLK
) SS.:
Being duly sworn, I depose and say under penalty of perjury:
1. That I am over the age of 18 years and am not a party to this action. I am an employee of
the Supreme Court Press, the preparer of the document, with mailing address at 1089 Commonwealth
Avenue, Suite 283, Boston, MA 02215.
2. On the undersigned date, I served the parties in the above captioned matter with the DAVID
EHRMAN REPLY BRIEF OF PETITIONERS, by shipping three (3) true and correct copies of the same
by Fedex 2 Day service, postage prepaid for delivery to the following addresses:
Katharine Tracy Van Dusen
Coblentz Patch Duffy & Bass LLP
One Montgomery Street, Suite 3000
San Francisco, CA 94104
(415) 391-4800
ef-ktv@cpdb.com
Counsel for Cox Communications, Inc, et al.

Lucas DeDeus

March 4, 2020
SCP Tracking: Soderstrom-3 Park Plaza, Suite 100-Cover Tan

